APPENDIX

Case 20-1551, Document 39, 10/05/2020, 2945201, Pagel of 1

E.D.N.Y.-Bklyn
15-cv-1072
Block, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 5th day of October, two thousand twenty.
Present:
Rosemary S. Pooler,
Raymond J. Lohier, Jr.,
William J. Nardini,
Circuit Judges.
Aura Moody, on behalf of her minor child, JM,
Plaintiff-Appellant,
Julian Moody,
Plaintiff
v.

20-1551

National Football League,
Defendant-Appellee.
Appellant, pro se, moves for leave to amend, to add parties, and for relief from judgment. Upon
due consideration, it is hereby ORDERED that the motion is DENIED and the appeal is
DISMISSED because it “lacks an arguable basis either in law or in fact.” Neitzke v. Williams,
490 U.S. 319, 325 (1989); see also Pillay v. INS, 45 F.3d 14, 17 (2d Cir. 1995) (per curiam).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

Case 20-1551, Document 50, 01/21/2021, 3017946, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
21st day of January, two thousand twenty-one.

Aura Moody, on behalf of her minor child, JM,
Plaintiff - Appellant,
Julian Moody,
Plaintiff,

ORDER
Docket No: 20-1551

v.
National Football League,
Defendant - Appellee.

Appellant, Aura Moody, filed a petition for panel rehearing, or, in the alternative, for
rehearing en banc. The panel that determined the appeal has considered the request as a motion
for reconsideration, and the active members of the Court have considered the request for
rehearing en banc.
IT IS HEREBY ORDERED that the motion and petition are denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

